5/1/2020

Revolving Plan Personal Use Terms | John Deere US

REVOLVING PLAN TERMS AND CONDITIONS PERSONAL USE
RETAIL CREDIT AND SECURITY AGREEMENT
If you have applied for a revolving credit account, the following disclosures apply:
Account Opening, Application and Solicitation Disclosures
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

18.25% This APR will vary with the market based on the Prime Rate.

Penalty APR and When It

None

Applies
How to Avoid Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will

on Purchases

not charge you interest on purchases if you pay your entire balance due by
the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from the

To learn more about factors to consider when applying for or using a credit

Consumer Financial Protection

card, visit the website of the Consumer Financial Protection Bureau at http://

Bureau

www.consumerfinance.gov/learnmore
Fees Revised as of 5/01/2019

https://www.deere.com/en/finance/financing/terms/all-terms/

1/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

Penalty Fees
Late Payment Fee

Up to $39.00

Returned Payment Fee

Up to $39.00

HOW WE CALCULATE YOUR BALANCE. We use a method called "average daily balance (including new purchases)."
See your Account Agreement for more details.
BILLING RIGHTS. Information on your rights to dispute transactions and how to exercise those rights is provided in
your Account Agreement.
APPLICANT(S) ACKNOWLEDGE THAT (1) SELLER HAS NOT REPRESENTED THAT THE TERMS OF THIS
FINANCING ARE MORE OR LESS FAVORABLE THAN OTHER FINANCING; (2) SELLER IS NOT APPLICANT'S
AGENT IN OBTAINING THE FINANCING; (3) APPLICANT MAY OBTAIN FINANCING FROM OTHER SOURCES; (4)
SELLER MAY BE COMPENSATED FOR SERVICES INVOLVED IN ARRANGING THIS FINANCING.
TERMINOLOGY. In this Agreement the words you, your, and yours mean each person who applies for and is granted a
Revolving Plan Account, ("Account") and any co-applicant identified on the application. JDF means John Deere
Financial, f.s.b., or any subsequent holder of the Account or any balances arising under the Account. When the terms
"finance charge" and "interest charge" are used in this Agreement and on other documents related to your Account, they
have the same meaning.
CREDIT APPROVAL. This Agreement is not binding on JDF unless and until JDF has approved your credit and given
you notice of approval.
CARD. You requested an Account and credit card ("Card") from JDF. You agree that this Agreement controls all
purchases made on this Account or with use of the Card by you or any person you authorize to use it. This arises out of
a consumer credit sale. You authorize JDF to honor any purchase you make by mail, telephone, internet, facsimile
transmission (fax) or other electronic means on your Account. You agree that a signature is not necessary as

https://www.deere.com/en/finance/financing/terms/all-terms/

2/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

identification in such cases. You agree that any authorized use of your Account or Card constitutes your acceptance of
all the terms and conditions of this Agreement, as it may be amended from time to time. If you submit your application
to JDF by internet, facsimile transmission (fax), or other electronic means, you agree that the application will have the
same effect as a signed original. You agree that you will promptly notify JDF in writing of suspected loss, theft, or
unauthorized use of your Card. You may be liable for the unauthorized use of your Card before you notify JDF in writing
at John Deere Financial, P.O. Box 5327, Madison, Wisconsin 53705-0327 (800-541-2969) of the unauthorized use. In
any case, your liability will not exceed $50. You consent and agree that your telephone conversations with JDF may be
recorded to further improve JDF’s customer service. You agree that JDF and any affiliate and any retained debt collector
may place phone calls to you using any telephone number, including a mobile phone number, you have provided to JDF,
any affiliate or any retained debt collector, including calls using an automatic dialing and announcing device and
prerecorded calls, and that such calls are not "unsolicited" under state or federal law. You agree to give JDF prompt
notice of any change in your name, mailing address, telephone number or place of employment. You agree that until
JDF receives notice of your new address, JDF may continue to send statements and other notices to the address you
gave JDF on the application for this Account. You agree that, for the purposes of this Agreement, you will be deemed to
"reside" in the state of your billing address as shown on JDF’s records. If more than one person or entity signed the
application, each is jointly and severally responsible for all obligations, and amounts due, under this Agreement. If
Maryland law applies, Subtitle 9 of Title 12 of the Maryland Commercial Law will apply.
CREDIT LIMIT. JDF will state your credit limit for your purchases when JDF notifies you of credit approval and issues
your Card. You may request a change to your credit limit by writing JDF at the address listed above. You agree that
JDF may increase or decrease your Account credit limit at any time, in JDF's sole discretion, without prior
notice to you.
ACCOUNT USE. You can use your Account to purchase authorized goods and services from participating retailers up to
the full amount of your credit limit. You agree you will owe JDF all amounts charged on the Account, plus interest
charges and the other charges provided for in this Agreement. Unless your Account has been closed or suspended, JDF
will allow a purchase of authorized goods or services from a participating retailer to be made through your Account as

https://www.deere.com/en/finance/financing/terms/all-terms/

3/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

long as (1) you are not in default; (2) your financial condition has not materially or adversely changed; and (3) JDF has
not been provided information by third parties that indicates serious charge-offs or delinquencies with other of your
accounts. We will consider your Account to be inactive if, for six months or more, no purchases have been made
through your Card, and your Account Balance has been zero.
You agree that all purchases and transactions made on your Account shall be for a personal, family or household
purpose, and not for a business or commercial purpose.
You agree that JDF is not responsible for the refusal of anyone to allow a purchase to be made through your
Card.
MONTHLY STATEMENT. JDF will send you a monthly statement whenever there is activity on your Account. Your
monthly statement will show your New Balance and any Late Fees and Interest Charge for purchases. In addition, it will
show any available credit for purchases, an itemized list of current Purchases, Debits, Payments and Credits, the
Minimum Required Payment and the Payment Due Date, as well as other pertinent information concerning your
Account.
For information about your rights regarding billing errors, refunds, or adjustments, please refer to the section - "Your Billi
ng Rights".
We will send your monthly statements on dates and in intervals determined by JDF. Such statement shall be deemed
correct and accepted by you unless JDF is notified to the contrary in writing within 60 days of JDF mailing such
statement. If you think your monthly statement is incorrect, write JDF on a separate sheet at the address shown on the
back of your billing statement. Describe the error as best you can and include your Account number in all
correspondence.
PAYMENT. The Payment Due Date is the date the payment is due at the address shown on the front of your monthly
statement. You may at any time pay your entire New Balance or pay more than the Minimum Required Payment, and
you will avoid or reduce Interest Charges by doing so. If your Payment Due Date falls on a date on which we do not
https://www.deere.com/en/finance/financing/terms/all-terms/

4/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

receive or accept payments by mail (including weekends and holidays) we will not treat the payment received the next
business day as late for any purpose. All payments must be in U.S. dollars and drawn on funds on deposit in the United
States. Payments must be sent to John Deere Financial at the address designated on your monthly payment stub or to
any other payment address JDF later designates on your monthly statement payment stub. We will not accept any
payments at our offices.
INTEREST CHARGE RATES.
NO INTEREST IF PAID IN FULL. JDF will add an INTEREST CHARGE calculated at the Regular Purchase Rate, as
explained in the Special Promotions/No Interest if Paid in Full Transactions section of this Agreement.
REGULAR PURCHASES. On Regular Purchases, (not No Interest if Paid in Full Special Promotions) JDF will add an
INTEREST CHARGE calculated at the following rate, if your New Balance is not paid in full on or before the Payment
Due Date listed on your statement.
Interest Charges on your Account for Regular Purchases may be calculated using a variable rate that will be
determined by reference to a "Base Rate" to which is added a "Spread" to arrive at the current rate. The same
Spread will be used for purchase(s) within your Account.
The Base Rate from which your variable rate will be determined is the annual percentage rate of interest announced
publicly from time to time by Citibank, N.A. in New York, New York, as the base rate it uses for interest rate
determinations, which was in effect at the close of business on the fifteenth (15th) calendar day of each month, or the
next succeeding business day if the fifteenth is not a business day ("Reference Day"). The Spread added to the Base
Rate to determine the ANNUAL PERCENTAGE RATE (APR) that will apply to your Account will be:
Spread
Regular Purchase Rate

https://www.deere.com/en/finance/financing/terms/all-terms/

15%

5/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

Rate increases and decreases, that result from changes in the Base Rate will take effect on the first day of the month,
or the next succeeding business day if the first day is not a business day, after the Reference Day on which the Base
Rate changes.
Changes in your variable rate will apply to your existing Account Balance as well as to future purchases. An increase
in your rate will increase the total Interest Charge accruing on your Account and the balance on which your Minimum
Required Payment is calculated. For example, if the Base Rate (and thus the applicable variable rate) were to
increase by 5%, and the average daily balance to which the new rate applied was $1,000, your INTEREST CHARGE
for that month would increase by $4.17 as a result of the increase in the variable rate.
Current effective rates are shown below:

REGULAR PURCHASE RATE

Daily

ANNUAL PERCENTAGE

Periodic Rate

RATE

.050%

18.25%

The above rate is correct as of the date of printing, 04/01/2020, but is subject to change after that date. To find out what
may have changed, write to JDF at John Deere Financial, P.O. Box 5327, Madison, Wisconsin 53705-0327; or call
Customer Service at 1-800-541-2969.
INTEREST CHARGE CALCULATION. The amount of INTEREST CHARGE is determined in the following manner. JDF
uses the daily periodic rates and corresponding APR shown in this Agreement. The applicable periodic rate is applied
to the "Average Daily Balance" of your corresponding purchases, including current transactions, during the current billing
cycle.
To get the "Average Daily Balance", JDF takes the beginning balance of those purchases each day, starting with any
Previous Balance outstanding on the first day of the monthly billing cycle, adds new purchases and debits (other than
late payment fees), and subtracts payments or credits. This determines the daily balance. Unless JDF elects to use a
later date, purchases are added to the daily balance as of the date of purchase.
https://www.deere.com/en/finance/financing/terms/all-terms/

6/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

JDF totals the daily balances for the billing cycle and divides the total by the number of days in the billing cycle. This
gives JDF each "Average Daily Balance" which is shown on your monthly statement.
MINIMUM MONTHLY PAYMENT. You agree to pay each month a Minimum Required Payment equal to:
1. Any late payment fee due; plus
2. Any additional fees; plus
3. Any amount past due; plus
4. For purchases:
a. Either the greater of: (i) $50 or (ii) 2.50% of your highest balance;
b. Or your entire New Balance, if it is $50 or less.
SPECIAL PROMOTIONS. From time to time special financing terms, such as extended free periods, incentive interest
rates on certain purchases or other promotions may be available. This may be limited to certain purchases from
participating retailers. These special terms will be disclosed by the retailer at the time of purchase or on the next monthly
statement sent to you and will govern the APR and repayment terms. Purchases you make during these special
promotions will be separately identified on your monthly statement and will become part of the balance on which your
INTEREST CHARGE and Minimum Required Payment are calculated at the time provided in the special terms
disclosure. Final payment due for these transactions may be slightly larger. Any introductory low rate may be
followed by a higher rate, which may be as high as the Regular Purchase Rate.
NO INTEREST IF PAID IN FULL TRANSACTIONS. Unless otherwise disclosed, minimum monthly payments will be
made and Interest Charge will accrue from the transaction date during the No Interest if Paid in Full period described
on your monthly statement at the Regular Purchase Rate as explained in the Regular Purchase Rate section of this
Agreement. No Interest Charge will be due until the end of the No Interest if Paid in Full period and any accrued
Interest Charge will be waived if the entire No Interest if Paid in Full balance is paid in full by the end of this No

https://www.deere.com/en/finance/financing/terms/all-terms/

7/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

Interest if Paid in Full period. If the No Interest if Paid in Full transaction balance is not paid in full during the
introductory No Interest if Paid in Full period, interest charge will accrue from the transaction date at the
Regular Purchase Rate.
NO INTEREST WITH PAYMENT TRANSACTIONS. Interest Charges will not accrue during any no interest period
described on your monthly statement. Minimum required payments will be required during the no interest period. If
the no interest transaction is not paid in full during the introductory no interest period, interest charge will
accrue at the Regular Purchase Rate.
OTHER FEES AND CHARGES. JDF will add to your Account: (1) A Late Payment Fee of $28 may be applied for the
first time JDF does not receive a payment of at least the current portion of your Minimum Required Payment (Minimum
Required Payment plus unpaid late payment fees and past due amounts) by the Payment Due Date shown on your
statement and a $39 fee for any additional late payments during the next six statement billing cycles; (2) A Returned
Payment Fee of $28 may be applied on the first check or electronic payment authorization JDF receives which is
dishonored and a $39 fee for any additional dishonored payments during the next six statement billing cycles; and (3)
expenses incurred in connection with the enforcement of our remedies upon default, including, without limitation, (a)
repossession, repair and collection costs, and (b) any attorney fees plus court costs and related fees, including any
bankruptcy fees and costs, to the extent permitted by applicable law. If New Hampshire law applies, those fees may be
awarded to you if you prevail in any such action, suit or proceeding. Any credit balance in excess of $1 on your Account
will be refunded within 7 business days from JDF’s receipt of your written request. Otherwise, JDF will refund to you any
credit balance remaining on your Account after six months. JDF will retain any credit balance if it is less than $1 or if
JDF does not know your address and it cannot be traced through the last address or telephone number provided JDF.
ACCEPTING PAYMENT. JDF can accept late or partial payments, as well as payments marked "paid in full" or with
other restrictive endorsements, without losing any of JDF's rights under this Agreement.

https://www.deere.com/en/finance/financing/terms/all-terms/

8/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

CREDIT REPORTS. JDF may report your performance under this Agreement to credit reporting agencies and others
who request a credit reference from JDF. JDF may ask credit reporting agencies or others you list as a credit reference
for consumer reports or information regarding your credit history at any time for all legitimate purposes, including credit
decisions and the review and collection of your Account. If you request, you will be provided with the name and address
of any credit reporting agency that provided a report in connection with this application. As required by law, you are
hereby notified that a negative credit report reflecting on your credit record may be submitted to a credit reporting
agency if you fail to fulfill the terms of your credit obligations. You also authorize JDF to disclose financial information
about you as described in this Agreement and future notices JDF may send you.
CANCELLATION. You may close your Account to future purchases at any time by notifying JDF in writing and returning
all Cards. JDF may close or suspend your Account to future purchases at any time without prior notice. Regardless of
the expiration, closing or suspension of your Account, you remain responsible for paying the amount you owe JDF
according to the terms of this Agreement.
SECURITY INTEREST. You grant JDF a purchase money security interest in all merchandise purchased through your
Account, and its proceeds, including insurance proceeds, but this provision does not apply if you reside in NC and the
APR on a purchase or transaction exceeds 15%. JDF's security interest continues until such merchandise is paid for in
full by application of your payments in the manner described in this Agreement. You agree to execute and authorize JDF
to file (or to sign for you and file) any financing statement(s) or other document(s) needed to perfect the security interest
that you have given JDF or that JDF may deem necessary before your debt is paid in full.
PROPERTY INSURANCE. While JDF's security interest in the merchandise continues, you must maintain all-risk
physical damage insurance on each merchandise item of which $5,000 or more is financed through your Account. You
may obtain such coverage from any source and, if it is not available from or through JDF, you will name John Deere
Financial, f.s.b. as a loss payee of the insurance, entitled to at least 10 days advance notice of its cancellation, and at
JDF's request you will provide evidence thereof. You assign and direct the insurer to pay JDF the proceeds of such

https://www.deere.com/en/finance/financing/terms/all-terms/

9/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

insurance. You authorize JDF to make and settle claims, and to endorse in your name(s) and apply, any instrument for
such proceeds to the unpaid purchase price of the item or, at JDF's option, to its restoration, returning any excess to
you.
PAYMENT APPLICATION.
You agree that your Minimum Required Payment will be applied as JDF determines in its sole discretion. You agree that
JDF has this discretion and that JDF may exercise it to suit its own convenience and interests, without further notice to
you. You also agree that JDF may change how it applies your Minimum Required Payment at any time without notice to
you. You acknowledge that the exercise of this discretion by JDF may result in cases in which the application of the
Minimum Required Payment to the Account creates higher Interest Charges than other payment application methods
and that this may include payments allocated to balances with lower APRs before balances with higher APRs and/or to
balances with longer promotional periods before balances with shorter or no promotional periods. JDF shall apply
amounts paid by you in excess of the Minimum Required Payment amount first to the transaction balance bearing the
highest rate of interest, and then to each successive transaction balance bearing the next highest rate of interest, until
all the amount you paid is applied to the Account. If you have a deferred interest transaction(s) on the Account, JDF will
allocate the entire amount paid by you in excess of the Minimum Required Payment amount to the balances on which
interest is deferred during the last 2 billing cycles immediately preceding the expiration of the period during which
interest is deferred. JDF may, in its sole discretion, consider requests by you to apply amounts paid in excess of the
Minimum Required Payment in other ways.
You agree that your payments will be credited as of the date of receipt at the address on the payment stub of your
Monthly Statement if received by 5:00 p.m. Central Time Monday through Friday (otherwise next business day). If
payment is not accompanied by the payment stub or Account number, is not received at that location, or is not made in
U.S. Dollars, by check or money order, credit may be delayed up to two business days.
RETAILER CHARGEBACKS. JDF may chargeback to a retailer who sold goods or services to you on your Account,
any part of your Account balance related to those purchases. In such an event, this Agreement will be deemed
assigned to the retailer to the extent of the chargeback. You agree to such an assignment and further agree to pay the
https://www.deere.com/en/finance/financing/terms/all-terms/

10/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

retailer the amount of such chargeback in accordance with the terms of this Agreement.
DEFAULT. You agree that you will be in default if: (a) you fail to pay the Minimum Required Payment by the Payment
Due Date on two occasions within any 12 month period; (b) the value of JDF's security interest in any collateral is
materially impaired; (c) your ability to repay is materially reduced by your exceeding your credit limit, by a change in your
employment, by a change in your obligations, by bankruptcy or insolvency proceedings involving you, or (for community
property state residents only) by a change in your marital status or domicile; (d) if you die or are declared incompetent;
(e) you provided JDF false or misleading information relating to your credit application or Account; (f) any purchase or
transaction on your Account is not for a personal, family or household purpose; (g) you fail to perform any other of your
obligations under the terms of this Agreement as it may be amended; or (h) you are in default under any other
agreement you have with JDF or any of its affiliates.
You agree that upon your default, JDF may close your Account to future purchases and demand immediate payment of
your entire Account balance, after giving you any notice and opportunity to cure the default required by applicable law. In
addition, you agree that JDF shall have all the rights of a secured creditor under the Uniform Commercial Code and
other applicable law.
ELECTRONIC DISCLOSURE. You agree that any notices and disclosures related to your Account can be delivered to
you in printed form or by electronic means by sending them to any electronic mail address that you provided to JDF
when you applied for this Account or at a later date. Until JDF receives notice of a new electronic mail address, JDF
may continue to send such notices and disclosures to the electronic mail address you most recently provided to JDF.
ERRORS IN CREDIT BUREAU INFORMATION. If you believe JDF has reported inaccurate information about you to a
credit bureau, please contact JDF at John Deere Financial, P.O. Box 5327, Madison, Wisconsin 53705-0327, and
identify the inaccurate information and tell JDF why you believe it is incorrect.
DELAY IN ENFORCEMENT. JDF can delay enforcing our rights under this Agreement without losing them.

https://www.deere.com/en/finance/financing/terms/all-terms/

11/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

OTHER SERVICES. Third parties may offer additional features, services and enhancements related to the Account. You
acknowledge that JDF is not liable for those and that they are the sole responsibility of those third parties. If you receive
insurance services, you understand that you will receive all the information on those services from the insurer. That
insurance may be cancelled if you are in default under this Agreement.
GOVERNING LAW. This Agreement must be approved, and all charges and payments to your Account processed by
JDF, at our office in Madison, Wisconsin. Therefore this Agreement and your Account will be governed by the
substantive law of the United States and to the extent state law applies to this Agreement, the substantive law of the
State of Wisconsin, regardless of whether or not you reside in Wisconsin. The law of your state of residence may apply
to JDF's recovery of any collateral located there. This is the entire Agreement between you and JDF and no oral
changes can be made to it.
VALIDITY. Invalidity of any provision of this Agreement shall not affect the validity and enforceability of the remainder of
its terms.
CHANGING THIS AGREEMENT. IMPORTANT: READ BEFORE SIGNING. THE TERMS OF THIS AGREEMENT
SHOULD BE READ CAREFULLY BECAUSE ONLY THOSE TERMS IN WRITING IN THIS AGREEMENT ARE
ENFORCEABLE. NO OTHER TERMS OR ORAL PROMISES NOT CONTAINED IN THIS WRITTEN AGREEMENT
MAY BE LEGALLY ENFORCED. YOU MAY CHANGE THE TERMS OF THIS AGREEMENT ONLY BY ANOTHER
WRITTEN AGREEMENT BETWEEN YOU AND JDF. JDF may change this Agreement, including the Annual
Percentage Rate and the Interest Charge Calculation, at any time. JDF will provide you prior written notice. To the extent
that the law permits and JDF indicates in our notice, the changes will apply to your existing Account balance as well as
to future transactions.
NOTICE TO ACTIVE DUTY SERVICEMEMBERS AND THEIR DEPENDENTS. Federal law provides important
protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: the costs

https://www.deere.com/en/finance/financing/terms/all-terms/

12/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation fees for a credit card account)
TOLL-FREE NUMBER FOR ACTIVE DUTY SERVICEMEMBERS AND THEIR DEPENDENTS. If you would like to
receive a statement of the Military Annual Percentage Rate applicable to this extension of consumer credit, and/or a
clear description of the payment obligation of the covered borrower, please contact us at: 1-800-519-2242.
ARBITRATION OF DISPUTES. In the event of any past, present or future claim or dispute between you and JDF arising
from or relating to your Account, any prior account you have had with JDF, your application, the relationships which
result from your Account or the enforceability or scope of this arbitration provision, of the Agreement or of any prior
agreement, you or JDF may elect to resolve the claim or dispute by binding arbitration.
FEDERAL LAW PROVIDES THAT JDF CANNOT REQUIRE CERTAIN ACTIVE DUTY MILITARY SERVICEMEMBERS
OR THEIR DEPENDENTS (“COVERED BORROWERS”) TO RESOLVE THESE CLAIMS OR DISPUTES BY BINDING
ARBITRATION. IF YOU QUALIFY UNDER FEDERAL LAW AS A COVERED BORROWER, THEN THIS SECTION
DOES NOT APPLY TO YOU AND NEITHER JDF NOR YOU MAY ELECT TO RESOLVE SUCH CLAIMS OR
DISPUTES BY BINDING ARBITRATION. IF YOU DO NOT QUALIFY UNDER FEDERAL LAW AS A COVERED
BORROWER, THEN THIS SECTION DOES APPLY TO YOU.
This includes any such claim or dispute, whether based upon contract, property, tort, statute, common law or equity,
other than a claim relating to JDF's right to repossess the merchandise purchased through your Account by self-help, if
permitted, or by judicial process. The parties agree and understand that the arbitration shall have all Powers provided by
law and the Contract. These Powers shall include all legal and equitable remedies including, but not limited, to money
damages, declaratory relief and injunctive relief.
The parties agree and understand that they choose arbitration instead of litigation to resolve disputes. The parties
understand that they have the right or opportunity to litigate disputes in court, but that they prefer to resolve their
disputes through arbitration, except as provided herein.
https://www.deere.com/en/finance/financing/terms/all-terms/

13/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

IF EITHER YOU OR JDF ELECT ARBITRATION, NEITHER YOU NOR JDF SHALL HAVE THE RIGHT TO LITIGATE
THAT CLAIM IN COURT OR TO HAVE A JURY TRIAL ON THAT CLAIM. PRE-HEARING DISCOVERY RIGHTS AND
POST-HEARING APPEAL RIGHTS WILL BE LIMITED. THE PARTIES VOLUNTARILY AND KNOWINGLY WAIVE ANY
RIGHT THEY HAVE TO A JURY TRIAL, EITHER PURSUANT TO ARBITRATION UNDER THIS CLAUSE OR
PURSUANT TO A COURT ACTION.
NEITHER YOU NOR JDF SHALL BE ENTITLED TO JOIN OR CONSOLIDATE CLAIMS IN ARBITRATION BY OR
AGAINST OTHER CUSTOMERS WITH RESPECT TO OTHER ACCOUNTS, OR ARBITRATE ANY CLAIMS AS A
REPRESENTATIVE OR MEMBER OF A CLASS OR IN A PRIVATE ATTORNEY GENERAL CAPACITY.
Even if all parties have opted to litigate a claim in court, you or JDF may elect arbitration with respect to any claim made
by a new party or any new claims later asserted in that lawsuit, and nothing undertaken therein shall constitute a waiver
of any rights under this arbitration provision. Arbitration may be elected at any time, regardless of whether a lawsuit has
been filed, unless the lawsuit involving that claim or dispute has resulted in a final judgment. JDF will not invoke our right
to arbitrate an individual claim you bring in small claims court or your state's equivalent court, if any, so long as the claim
is pending only in that court and does not exceed $5,000.
Your Account involves interstate commerce, and this provision shall be governed by the Federal Arbitration Act (FAA).
The arbitration shall be conducted by JAMS or American Arbitration Association (AAA), at the option of the party
electing arbitration, in accordance with their procedures in effect when the claim is filed. As of "date of print", for a copy
of their procedures, to file a claim or for other information, contact AAA's customer service at 1-800-778-7879 or visit
their website at www.adr.org or contact JAMS at 1-800-352-5267 or by visiting their website at www.jamsadr.com. All
claims may be filed at any JAMS or AAA office. At your written request, JDF will advance any arbitration filing,
administrative and hearing fees which you would be required to pay to pursue a claim or dispute as a result of JDF's
electing to arbitrate that claim or dispute. The arbitrator will decide who will ultimately be responsible for paying those
fees. In no event will you be required to reimburse JDF for any arbitration filing, administrative, or hearing fees in an
amount greater than what your and JDF's combined court cost would have been if the claim had been resolved in a
state court with jurisdiction.
https://www.deere.com/en/finance/financing/terms/all-terms/

14/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

Any arbitration hearing will take place in the federal judicial district where you reside. The arbitrator shall follow
applicable substantive law to the extent consistent with the FAA and applicable statutes of limitations and shall honor
claims of privilege recognized at law. If requested by any party, the arbitrator shall write an opinion containing the
reasons for the award. The arbitrator's decision will be final and binding except for any appeal rights under the FAA and
except that if the amount in controversy exceeds $100,000, any party may appeal the award within 30 days to a threearbitrator panel which shall review the award de novo. The costs of such an appeal shall be borne by the appealing
party regardless of outcome. Judgment upon any award by the arbitrator may be enforced in any court having
jurisdiction.
Our rights and obligations under this arbitration provision shall inure to the benefit of and be binding upon JDF's parent
corporations, subsidiaries, affiliates, predecessors, successors and assigns, as well as the officers, directors and
employees of each of these entities, and will also inure to the benefit of any third party named as a co-defendant with
JDF or with any of the foregoing in a claim which is subject to this arbitration provision. Your rights and obligations under
this arbitration provision shall inure to the benefit of and be binding upon all persons contractually liable under this
Agreement and all Authorized Users of the Account. This arbitration shall survive termination of your Account as well as
voluntary payment in full by you, and legal proceedings by JDF to collect a debt owed by you, any bankruptcy by you
and any sale by JDF of your Account.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT. To help the government
fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain,
verify, and record information that identifies each person who opens an Account. What this means for you: When you
open an Account, you will be asked for your name, address, date of birth, and other information that will allow JDF to
identify you. You may also be asked to show your driver's license or other identifying documents.

YOUR BILLING RIGHTS.
KEEP THIS NOTCE FOR YOUR FUTURE USE.
https://www.deere.com/en/finance/financing/terms/all-terms/

15/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

THIS NOTICE CONTAINS IMPORTANT INFORMATION ABOUT YOUR RIGHTS
AND
JDF'S RESPONSIBILITIES UNDER THE FAIR CREDIT BILLING ACT.
NOTIFY JDF IN CASE OF ERRORS OR QUESTIONS ABOUT YOUR BILL. If you think your bill is wrong, or if you
need more information about a transaction on your bill, write to JDF (on a separate sheet) at the address shown on the
back of your billing statement. Write to JDF as soon as possible. JDF must hear from you not later than 60 days after
JDF sent you the first bill on which the error or problem appeared. You can telephone JDF, but doing so will not
preserve your rights. In your letter, give JDF the following information:
Your name and Account number
The dollar amount of the suspected error
Describe the error and explain, if you can, why you believe there is an error.
If you need more information, describe the item you are unsure about
If you have authorized JDF to pay your credit card bill automatically from your savings or checking account, you can
stop the payment on any amount you think is wrong. To stop the payment your letter must reach JDF three business
days before the automatic payment is scheduled to occur.
YOUR RIGHTS AND RESPONSIBILITIES AFTER JDF RECEIVES YOUR WRITTEN NOTICE. JDF must acknowledge
your letter within 30 days, unless JDF has corrected the error by then. Within 90 days, JDF must either correct the error
or explain why JDF believes the bill was correct.
After JDF receives your letter, JDF cannot try to collect any amount you question, or report that amount as delinquent.
JDF can continue to bill you for the amount you question, including interest charges, and JDF can apply any unpaid
amount against your credit limit. You do not have to pay any questioned amount while JDF is investigating, but you are
still obligated to pay the parts of your bill that are not in question.

https://www.deere.com/en/finance/financing/terms/all-terms/

16/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

If JDF finds that it made a mistake on your bill, you will not have to pay any interest charges related to any questioned
amount. If JDF did not make a mistake, you may have to pay interest charges, and you will have to make up any
missed payments on the questioned amount. In either case, JDF will send you a statement of the amount you owe and
the date that it is due.
If you fail to pay the amount that JDF thinks you owe, JDF may report you as delinquent. However, if JDF’s explanation
does not satisfy you, and you write to JDF within 25 days telling JDF that you still refuse to pay, JDF must tell anyone it
reports you to that you have a question about your bill. And, JDF must tell you the name of anyone it reports you to.
JDF must tell anyone it reports you to that the matter has been settled between you and JDF when it is finally settled.
If JDF doesn’t follow these rules, JDF can’t collect the first $50 of the questioned amount, even if your bill was correct.
SPECIAL RULES FOR CREDIT CARD PURCHASES. If you have a problem with the quality of property or services
that you purchased with your credit card and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the property or services. There are two limitations on this
right:
You must have made the purchase in your home state or, if not within your home state, within 100 miles of your
current mailing address; and
The purchase price must have been more than $50.
These limitations do not apply if JDF owns or operates the merchant, or if JDF mailed you the advertisement for the
property or services.
YOUR CHOICE TO LIMIT MARKETING:
The John Deere Financial companies are providing this notice. They include Deere & Company, Deere Credit, Inc.,
John Deere Construction & Forestry Company and John Deere Financial, f.s.b.

https://www.deere.com/en/finance/financing/terms/all-terms/

17/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

You may limit the John Deere companies, such as the manufacturing, credit, leasing and insurance affiliates, from
marketing their products or services to you based on your personal information that they receive from any
John Deere Financial company. This information may include your income, account history, and credit score.
Your choice to limit marketing offers from the John Deere companies will apply for at least 5 years from when you
tell us your choice. Once that period expires, you will receive a renewal notice that will allow you to continue to limit
marketing offers from the John Deere companies for at least another 5 years.
To limit marketing offers, contact us at 1-800-541-2969.
(20-04)
Revolving Plan Accounts are a service of John Deere Financial, f.s.b.
View printer friendly version of the Privacy Notice below (PDF)
Page 1 of 2
Rev. March 2020

https://www.deere.com/en/finance/financing/terms/all-terms/

18/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

FACTS
Why?

WHAT DOES JOHN DEEERE FINANCIAL, F.S.B. DO WITH YOUR PERSONAL
INFORMATION?
Financial companies choose how they share your personal information. Federal law gives
consumers the right to limit some but not all sharing. Federal law also requires us to tell you
how we collect, share, and protect your personal information. Please read this notice
carefully to understand what we do.

What?

The types of personal information we collect and share depend on the product or service
you have with us. This information can include:
• Social Security number and income
• account balances and payment history
• credit history and credit scores

How?

All financial companies need to share customers’ personal information to run their everyday
business. In the section below, we list the reasons financial companies can share their
customers’ personal information; the reasons John Deere Financial, f.s.b. chooses to share;
and whether you can limit this sharing.

https://www.deere.com/en/finance/financing/terms/all-terms/

19/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

Reasons we can share your personal information

Does John Deere

Can you limit this

Financial, f.s.b. share?

sharing?

For our everyday business purposes - such as to
process your transactions, maintain your account(s),

Yes

No

Yes

No

Yes

No

Yes

No

Yes

Yes

For our affiliates to market to you

Yes

Yes

For nonaffiliates to market to you

Yes

Yes

respond to court orders and legal investigations, or
report to credit bureaus
For our marketing purposes - to offer our products
and services to you
For joint marketing with other financial
companies
For our affiliates' everyday business purposes information about your transactions and experiences
For our affiliates' everyday business purposes information about your creditworthiness

https://www.deere.com/en/finance/financing/terms/all-terms/

20/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

To limit our

• Call 1-800-541-2969 – and at the Menu, select 0 and one of our Customer Service

sharing

Representatives will be able to assist you.
Please note: If you are a new customer, we can begin sharing your information 30 days
from the date we sent this notice. When you are no longer our customer, we continue to
share your information as described in this notice.
However, you can contact us at any time to limit our sharing.

Questions

Call 1-800-541-2969

Page 2 of 2
What we do
How does John Deere

To protect your personal information from unauthorized access and use, we

Financial, f.s.b. protect

use security measures that comply with federal law. These measures include

my personal information?

computer safeguards and secured files and buildings.

How does John Deere

We collect your personal information, for example, when you

Financial, f.s.b. collect my

• open an account

personal information:

• use your credit card or give us your income information
• pay us by check or show your driver’s license
We also collect your personal information from others, such as credit bureaus,
affiliates or other companies.

https://www.deere.com/en/finance/financing/terms/all-terms/

21/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

Why can't I limit all

Federal law gives you the right to limit only

sharing?

• sharing for affiliates' everyday business purposes—information about your
creditworthiness
• affiliates from using your information to market to you
• sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights to limit
sharing. See below for more on your rights under state law.

What happens when I

Your choice will apply to you. Others on your account may limit information

limit sharing for an

sharing for the account, or you can also limit sharing information for them.

account I hold jointly with
someone else?

Definitions
Affiliates

Companies related by common ownership or control. They can be financial
and nonfinancial companies.
• John Deere Companies including Deere & Company, Deere Credit, Inc.,
John Deere Construction and Forestry and John Deere Financial, f.s.b.

Nonaffiliates

Companies not related by common ownership or control. They can be financial
and nonfinancial companies.
• Such as mortgage bankers, securities brokers-dealers, insurance companies
and agents, retailers, direct marketers, airlines, publishers and non-profit
organizations.

Joint Marketing

A formal agreement between nonaffiliated companies that together market
financial products or services to you.
• John Deere Dealers

https://www.deere.com/en/finance/financing/terms/all-terms/

22/23

5/1/2020

Revolving Plan Personal Use Terms | John Deere US

Other important information
California Residents

We will not share information about you with nonaffiliated third parties, except
as permitted by California law, such as to process your transactions, maintain
your account or with your consent. California law gives you other personal
information privacy rights. See JohnDeere.com/Privacy for more information.

Vermont Residents

We will not disclose information about your creditworthiness to our affiliates
and will not disclose your personal information, financial information, credit
report, or health information to nonaffiliated third parties to market to you, other
than as permitted by Vermont law, unless you authorize us to make those
disclosures.
Additional information concerning our privacy policies can be found at
JohnDeere.com/Privacy or call 1-800-541-2969.

This is your Agreement. Please read it and keep it for your records.

https://www.deere.com/en/finance/financing/terms/all-terms/

23/23

